Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Glendale Police Department California
GR-90-01-010
July 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Glendale, California Police Department (GPD).  The purpose of the grants is to enhance community policing.  The GPD was awarded a total of $1,725,000 to hire 23 new police officers.

We found the GPD to be in compliance with COPS' grant requirements.  We reviewed the GPD's compliance with six essential grant conditions and found no weaknesses in each of the areas we tested: budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, and community policing.

Our audit objectives, scope and methodology appear in Appendix I.